July 26, 2021
Writer’s Direct Contact
(202) 220-1101
(213) 683-4007 FAX
Donald.Verrilli@mto.com

Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street N.E.
Washington, D.C. 20543
Re:

American Hospital Association et al. v. Becerra et al., No. 20-1114

Dear Mr. Harris:
I represent petitioners American Hospital Association et al. in the above-captioned case.
I am writing to request an extension of time for filing the briefs in this case, as follows:
Petitioners’ Brief and Joint Appendix: September 3, 2021
Respondents’ Brief: October 20, 2021
Reply Brief: November 19, 2021
Respondents have consented to that proposed schedule, which would allow the case to be set for
argument during the December sitting.

July 26, 2021
Page 2
Please let me know if you need additional information, and thank you very much for your time
and assistance in this matter.
Very truly yours,

Donald B. Verrilli
Cc: Counsel for respondents

